No. 19-67

IN THE

Supreme Court of the Anited States

UNITED STATES OF AMERICA,
Petitioner,
v.
EVELYN SINENENG-SMITH,
Respondent.

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the Brief for the
National Association of Criminal Defense Lawyers and the National Association of
Federal Defenders as Amici Curiae in Support of Respondent in the above-captioned
case contains 6,587 words, excluding the parts of the brief that are exempted by

Supreme Court Rule 33.1(d).

Elliott Schulder
COVINGTON & BURLING LLP
One CityCenter

850 Tenth Street, NW
Washington, DC 20001
eschulder@cov.com

(202) 662-6000

January 28, 2020
